No. 20-7038

IN THE SUPREME COURT OF THE UNITED STATES

DAVID PAUL MARTINEZ,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE
I certify that on this 17th day of March, 2021, in accordance with Sup. Ct. R.
29, copies of the (1) Reply Brief for Petitioner, and (2) Certificate of Service, were
served by email (SupremeCtBriefs@usdoj.gov) and third-party commercial carrier
for delivery within three days upon Elizabeth B. Prelogar, Acting Solicitor General,
Office of the Solicitor General of the United States of America, 950 Pennsylvania
Ave., NW, Washington, D.C. 20530-0001.
Dated: March 17, 2021
Varell L. Fuller *
Assistant Federal Public Defender
*Counsel of Record
55 South Market Street, Suite 820
San Jose, CA 95113
varell_fuller@fd.org
(408) 291-7753

